                       U.S. Department of Agriculture

                          Office of Inspector General
                                   Southwest Region




            Audit Report

USDA’s Role in the Export of Genetically
 Engineered Agricultural Commodities




                              Report No. 50601-14-Te
                                      February 2009
                       UNITED STATES DEPARTMENT OF AGRICULTURE

                                  OFFICE OF INSPECTOR GENERAL

                                      Washington, D.C. 20250




February 20, 2009


REPLY TO
ATTN OF:      50601-14-Te

TO:           Katherine Smith
              Acting Deputy Under Secretary
               for Research, Education and Economics

FROM:         Robert W. Young /s/
              Assistant Inspector General for Audit

SUBJECT:      USDA‟s Role in the Export of Genetically Engineered Agricultural Commodities


This report presents the results of the subject audit. The Secretary of Agriculture‟s written
response to the report, dated January 27, 2009, is included in its entirety as exhibit C with
excerpts and the Office of Inspector General‟s (OIG) position incorporated into the relevant
Findings and Recommendations section of the report.

We appreciate the Secretary‟s response agreeing to develop a comprehensive strategy relating to
the export of genetically engineered agricultural commodities. In order to accept management
decision on the recommendations, we need additional information. Documentation and actions
needed to reach management decisions for these recommendations are described in the OIG
Position sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementing those
recommendations for which management decision has not been reached. Please note that the
regulation requires a management decision to be reached on all recommendations within 6
months from report issuance, and final action to be taken within 1 year of each management
decision to prevent being listed in the Department‟s annual Performance and Accountability
Report.

We appreciate your timely response and the courtesies and cooperation extended to us by
members of your staff during the audit.
Executive Summary
USDA’s Role in the Export of Genetically Engineered Agricultural Commodities (Audit
Report No. 50601-14-Te)

Results in Brief                    U.S. producers have adopted new varieties of crops that have been
                                    genetically engineered (GE) to possess traits that improve production, reduce
                                    costs, protect the environment, and increase revenue. Over the last decade,
                                    GE plantings in the United States have increased from 3.6 million acres to
                                    143 million acres. In 2007, American producers alone accounted for
                                    50 percent of GE plantings worldwide. Even as GE varieties of common food
                                    crops such as corn and soybeans have become increasingly important to the
                                    U.S. agricultural economy, food commodities derived from GE plants face
                                    significant export barriers in many markets, including the markets of major
                                    U.S. trading partners such as the European Union (EU).

                                    These trade barriers result from different regulatory approaches to this new
                                    technology. Nations like those in the EU have argued that governments
                                    should approach GE food commodities with caution, treat them differently
                                    from non-GE food commodities, and label these products so that consumers
                                    can distinguish between them. For those who advocate this “precautionary
                                    principle,” governments should regulate GE food commodities, even if there
                                    are no demonstrable grounds for concern.

                                    The U.S. approach for regulating biotechnology products directs that GE
                                    food products should continue to be regulated according to their
                                    characteristics and unique features, not according to their method of
                                    production. Thus, Animal and Plant Health Inspection Service (APHIS)
                                    grants nonregulated status if the GE organism poses no more of a plant pest
                                    risk than an equivalent non-GE organism and the developer provides the
                                    information that it believes is adequate to ensure that the product is safe and
                                    complies with the relevant provisions of the Food, Drug, and Cosmetic Act.
                                    Henceforth, that GE food product is subject to no additional (or no different)
                                    regulatory processes.

                                    In 2006, the United States, along with Canada and Argentina, argued before
                                    the World Trade Organization (WTO)1 that the EU had adopted a general
                                    moratorium on all new biotech products and separate product-specific
                                    moratoria on each new biotech product. The EU also did not implement its
                                    own regulations to allow for review of biotech applications to take place. The
                                    WTO Panel found that the EU had adopted a moratorium on the final
                                    approval of biotech products and that the EU had presented no scientific or
                                    regulatory justification for the moratorium. The WTO Panel also identified

1
 In May 2003 the United States, Canada, and Argentina filed a WTO case against the EU over its illegal moratorium on approving agricultural biotech
products and EU member states‟ unjustified bans of previously approved products.
USDA/OIG-A/50601-14-Te                                                                                                                    Page i
                                    “undue delays” regarding pending product applications. Although the United
                                    States and the EU continue to negotiate to remove trade barriers for these
                                    commodities, those barriers are still in effect and still act to keep U.S. GE
                                    agricultural commodities out of many EU markets.

                                    Given these market conditions, the Office of Inspector General (OIG)
                                    initiated this audit to assess the Department of Agriculture‟s (USDA) role in
                                    promoting the export of GE agricultural commodities. While producers and
                                    private companies are the primary economic agents in a free market, they are
                                    at a significant disadvantage when dealing with barriers that have been
                                    imposed by foreign governments. The U.S. Government and USDA have an
                                    important role to play in negotiating with other nations to remove, resolve, or
                                    mitigate these barriers.

                                    USDA has identified promoting the international competitiveness of
                                    American agriculture as a strategic goal. USDA‟s 2006 Annual Performance
                                    and Accountability Report stated that “[e]xpanding global markets for
                                    agriculture products is critical for the long-term economic health and
                                    prosperity of the domestic food and agriculture sector.” Congress also
                                    recognized the importance of global trade in the 2002 Farm Bill and included
                                    provisions specifically relating to agriculture biotechnology because of its
                                    growing importance to trade. The 2002 Farm Bill required USDA to develop
                                    a global marketing strategy and a biotechnology and agricultural trade
                                    program designed to remove, resolve, or mitigate barriers to the export of
                                    U.S. commodities. It also required USDA to fund public education on the
                                    benefits of agricultural biotechnology, as well as research into the effects of
                                    biotechnology on the environment and how biotechnology can be used in
                                    developing countries. The recently enacted 2008 Farm Bill still required most
                                    of the 2002 Farm Bill provisions dealing with biotechnology; however, it did
                                    repeal the biotechnology and agricultural trade program and the program to
                                    fund public education on the benefits of agricultural biotechnology.

                                    Numerous USDA agencies, public and private groups, and committees
                                    appointed by the Secretary of Agriculture have discussed the impact of
                                    agriculture biotechnology on American agriculture, the environment, and
                                    trade since at least 2000 (see exhibit B). Outside USDA, the Office of
                                    Science and Technology Policy (OSTP),2 the Congressional Research
                                    Service (CRS),3 and the Government Accountability Office (GAO)4
                                    published papers and reports identifying the challenges producers face when
                                    planting and exporting GE crops. They also identified the specific challenges
                                    USDA must address to assist producers in expanding trade opportunities (see
                                    Findings 1 and 2).



2
  OSTP, “Food and Agricultural Biotechnology Initiatives: Strengthening Science-Based Regulation,” May 3, 2000.
3
  CRS, “U.S. Agricultural Biotechnology in Global Markets: An Introduction,” June 19, 2003.
4
  GAO-01-727, “International Trade: Concerns Over Biotechnology Challenge U.S. Agricultural Exports,” June 2001.
USDA/OIG-A/50601-14-Te                                                                                             Page ii
                                     Despite these discussions, USDA has not developed a coordinated,
                                     comprehensive strategy for addressing the various challenges to the trade in
                                     agricultural commodities, including GE commodities, and there is limited
                                     evidence that USDA has made measurable progress in fulfilling the various
                                     biotechnology goals of the 2002 Farm Bill. USDA‟s research and public
                                     information accomplishments relating to exporting these commodities are
                                     limited, and are not targeted towards any specific goal or trade challenge. We
                                     could not determine the progress made in, or the effectiveness of, USDA‟s
                                     biotechnology trade-related activities because USDA has not developed
                                     performance measures tied to any specific goal or objective.5

                                     Departmental officials responsible for providing leadership and direction on
                                     biotechnology-related activities within USDA advised that they have not
                                     developed such a strategy because they believe that USDA should not be
                                     involved in controlling the market and, instead, should focus on facilitating
                                     the operation of the market. Department officials have argued that private
                                     entities are more responsive to market conditions, and that responding to the
                                     market should be left to them. Other representatives of industry and
                                     Government we interviewed disagreed and stated that a USDA strategy for
                                     promoting the export of GE agricultural commodities is essential. We agree
                                     that such a strategy should not be geared to controlling the market, but, as the
                                     Department states, to facilitate trade opportunities.

                                     We found that market conditions for U.S. agricultural commodities have
                                     varied significantly over the past several years. Although the U.S trade
                                     balance in agricultural goods was declining from 1996 to 2006, the
                                     weakening of the dollar, poor harvests due to adverse weather conditions and
                                     strong demand in the world economy have combined to strengthen U.S.
                                     agricultural exports. In 2007 agricultural exports increased to $82.2 billion
                                     and USDA is currently forecasting agricultural exports totaling $114 billion
                                     in 2008. Even some nations formerly reluctant to import U.S. GE
                                     commodities have found the increased demand and shortage of supply a
                                     strong incentive to do so. However, the market for these commodities has
                                     proved to be especially volatile, and is subject to sudden shifts in demand,
                                     such as when types of GE rice and corn not intended for human consumption
                                     were found in the food supply.

                                     Developing a coordinated, comprehensive strategy for promoting the export
                                     of U.S. GE crops should prove beneficial to U.S. producers in such volatile
                                     market. As a recent release from USDA‟s Economic Research Service noted,
                                     U.S. producers have adopted GE crops “notwithstanding uncertainty about
                                     consumer acceptance.” Given that uncertainty, the Department has a
                                     responsibility to assist producers by designing a strategy serving not only to
                                     soften downturns in the market, but also to help increase exports when
                                     market conditions are more favorable. Additionally, this strategy should help

5
  The Government Performance and Results Act of 1993 is a results-oriented process that requires the development of a strategic plan, as well as annual
reporting, and that sets specific measurable targets of performance and a data-based assessment of success.
USDA/OIG-A/50601-14-Te                                                                                                                      Page iii
                   the Department focus proactively on opening markets to these types of
                   commodities, instead of dealing reactively with individual trade disputes as
                   they arise.

Recommendations
In Brief           Develop and implement a coordinated, comprehensive strategy for promoting
                   the export of U.S. GE crops.

                   Assist program agency officials in developing plans to implement the 2002
                   and 2008 Farm Bill provisions in line with the Department‟s and program
                   agencies‟ strategic plans and priorities, and in requesting funds to implement
                   each of those provisions.

                   Develop performance measures to            evaluate   the   effectiveness   of
                   biotechnology trade-related activities.

                   Formalize and better document existing processes to effectively coordinate
                   and utilize USDA‟s various biotechnology-related activities in developing its
                   strategies for resolving or mitigating GE trade barriers.

Agency Response    In a prior response to the draft audit report, dated January 15, 2009, the
                   former Deputy Chief of Staff (DCS) stated that the Department would not
                   develop a separate strategy for emphasizing biotech crops. In general, the
                   DCS felt that existing programs and performance measures were adequate to
                   meet the international challenges faced by U.S. biotech agriculture (see
                   exhibit D).

                   In a response, dated January 27, 2009, the current Secretary of Agriculture
                   stated that he had reviewed the report and recognized the report‟s merit. He
                   further stated that he has directed the Acting Under Secretary for Research,
                   Education and Economics to lead the Department‟s effort to develop a
                   comprehensive strategy relating to the export of GE commodities, and
                   directed that the framework for such a strategy be completed within 6 months
                   of this report‟s issuance (see exhibit C).

OIG Position       We acknowledge the Secretary‟s plan for corrective action. To reach
                   management decision, however, additional information is needed describing
                   the Department‟s comprehensive strategy and the specific actions that will be
                   taken in response to Recommendations 1 through 5, as well as timeframes for
                   implementation.




USDA/OIG-A/50601-14-Te                                                                   Page iv
Abbreviation Used in This Report

AC21              Advisory Committee on Biotechnology and 21 Century Agriculture
APEC              Asia Pacific Economic Cooperation
APHIS             Animal and Plant Health Inspection Service
ARS               Agricultural Research Service
BCG               Biotechnology Coordinating Group
BPG               Biotechnology Policy Group
BRAG              Biotechnology Risk Assessment Grant
BRS               Biotechnology Regulatory Services
CRS               Congressional Research Service
CSREES            Cooperative State Research, Education, and Extension Service
DCS               Deputy Chief of Staff
EPA               Environmental Protection Agency
EU                European Union
FAS               Foreign Agricultural Service
FDA               Food and Drug Administration
GAIN              Global Agriculture Information Network
GAO               Government Accountability Office
GE                Genetically Engineered
GIPSA             Gain Inspection, Packers and Stockyards Administration
GPRA              Government Performance and Results Act
IICA              Inter-American Institute for Cooperation on Agriculture
NABI              North American Biotechnology Initiative
OIG               Office of Inspector General
OSTP              Office of Science and Technology Policy
P.L.              Public Law
SASB              Special Assistant to the Secretary for Biotechnology
U.S.              United States
USDA              Department of Agriculture
USTR              U.S. Trade Representative
WTO               World Trade Organization




USDA/OIG-A/50601-14-Te                                                             Page v
Table of Contents

Executive Summary ................................................................................................................................. i

Abbreviation Used in This Report......................................................................................................... v

Background and Objective..................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. A Coordinated, Comprehensive Strategy is Needed to Address Challenges U.S.
                  Producers Face When Exporting GE Agricultural Commodities ......................... 5

        Finding 1 USDA Needs a Strategy Addressing the Challenges of Exporting GE
                    Agricultural Commodities ....................................................................................... 5
                        Recommendation 1......................................................................................... 11
        Finding 2 USDA Has Made Limited Progress in Completing Goals Related to Trade and
                    Biotechnology ....................................................................................................... 13
                        Recommendation 2......................................................................................... 19
                        Recommendation 3......................................................................................... 19
                        Recommendation 4......................................................................................... 20
        Finding 3 USDA‟s GE Commodities Trade Efforts Need Better Coordination and
                    Oversight by Senior Departmental Officials ......................................................... 21
                        Recommendation 5......................................................................................... 32

Scope and Methodology........................................................................................................................ 33

Exhibit A – World Agricultural Biotechnology Regulations ............................................................ 34
Exhibit B – USDA Offices, Groups, and Positions Involved with Biotechnology ........................... 38
Exhibit C – Secretary of Agriculture Response ................................................................................. 39
Exhibit D – Agency Response .............................................................................................................. 40




USDA/OIG-A/50601-14-Te                                                                                                                    Page vi
Background and Objective
Background         Recent technological advances have allowed scientists to modify plants‟
                   genetic coding and produce new plant varieties with new traits. This practice
                   has accelerated the development of new crops, a tendency that has been part
                   of agriculture since human beings first learned to cultivate crops. In the
                   United States, life science companies have taken advantage of this new
                   technology to engineer many new varieties of crops, some with useful traits
                   such as herbicide tolerance, insect and disease resistance, and altered
                   nutritional content. Many of these new genetically engineered (GE) plants are
                   also profitable since they can result in better yields and lower costs.

                   The United States has responded to this scientific advance with a
                   science-based regulatory structure that controls new GE plants while they are
                   under development. So long as a new variety of GE plant is under
                   development, it is regulated and subject to controls to prevent its accidental
                   introduction into the environment and the food supply. Since 1986,
                   biotechnology products have been regulated under a coordinated framework
                   of laws administered primarily by three agencies—the Environmental
                   Protection Agency (EPA), the Food and Drug Administration (FDA), and the
                   Department of Agriculture (USDA). The central premise of the coordinated
                   framework was that the process of biotechnology itself poses no unique risks
                   and that products engineered by biotechnology should therefore be regulated
                   under the same laws as conventionally produced products with similar
                   compositions and intended uses. A second and no less important conclusion
                   was that existing laws were adequate to meet regulatory needs.

                   After a new GE plant is determined to be “safe to grow,” Animal and Plant
                   Health Inspection Service (APHIS)‟ Biotechnology Regulatory Services
                   (BRS) can deregulate it when petitioned by the life science company or
                   public entity that conducted the field test. In the United States, GE grains that
                   have been deregulated may be freely sold and commingled with non-GE
                   grains.

                   Under this system, U.S. producers have adopted several varieties of GE
                   plants. As of 2007, GE varieties accounted for about 91 percent of soybeans
                   and 73 percent of corn planted. Moreover, these GE crops are used
                   extensively in many processed foods, such as corn syrup and soybean oil,
                   which are also major U.S. export commodities.

                   A widespread international consensus on how these new GE plant varieties
                   should be regulated has not emerged, however. Other nations—especially the
                   European Union (EU)—have created regulatory systems that differ from the
                   U.S. model. These regulatory systems are based on what has come to be
USDA/OIG-A/50601-14-Te                                                                       Page 1
                   known as the “precautionary principle” for regulating new varieties of GE
                   plants. According to the “precautionary principle,” governments should
                   regulate GE plants aggressively until definitive scientific proof is available
                   that a new GE plant will have no long-term, negative consequences on public
                   health and the environment. Foreign governments that have established
                   regulatory structures according to the “precautionary principle” have declined
                   to approve some varieties of GE plants that are widely harvested in the
                   United States. Department officials responded that “there is a unified U.S.
                   Government position about the principle and about the supposed reliance on
                   that principle by Europe and others,” which according to the Department has
                   been “an ex post facto justification for political decisions.” This difference in
                   how the United States and other countries regulate the development of GE
                   crops has effectively resulted in a number of trade barriers to the export of
                   U.S. GE agricultural commodities.

                   Trade Barriers to the Export of U.S. GE Agricultural Commodities

                   Foreign countries have established different types of recognized nontariff
                   trade barriers affecting exports of U.S. GE agricultural commodities—
                   moratoria on the approval of new varieties of GE plants, mandatory labeling
                   requirements for GE commodities, traceability requirements, and thresholds
                   for trace amounts of GE material that may be found in non-GE food
                   commodities. These barriers are common throughout the global marketplace.
                   As of 2004, the Foreign Agricultural Service (FAS) identified 50 countries
                   with mandatory labeling laws, 31 with traceability requirements, and 54 with
                   thresholds for trace amounts of GE material in non-GE commodities (see
                   exhibit A).

                         Moratoria on the Approval of New Varieties of GE Plants

                         Even though the EU had established a science-based regulatory approval
                         process for GE plants, the EU imposed, beginning in 1998, a moratorium
                         on the approval of any new GE plants for its markets. A majority of EU
                         states—France, Belgium, Luxembourg, the Netherlands, Germany,
                         Austria, Italy, Greece, Spain, Portugal, and Finland—effectively banned
                         GE plants from entering their markets.

                         In 2003, the United States, Canada, and Argentina responded to this
                         moratorium by filing suit in the World Trade Organization (WTO).
                         These countries argued that the EU had adopted a general moratorium on
                         all new biotech products and separate product-specific moratoria on each
                         new biotech product. The EU also did not implement its own regulations
                         to allow for review of biotech applications to take place. The moratorium
                         imposed undue delay on the more than 25 products then in the EU‟s
                         regulatory pipeline and the member state bans on products already
                         approved were not supported by scientific evidence and were thus illegal
USDA/OIG-A/50601-14-Te                                                                      Page 2
                         under WTO rules. The WTO Panel upheld the co-complainants‟ claim
                         and found that the EU adopted a moratorium on the final approval of
                         biotech products starting in 1999 through August 2003. The WTO also
                         found that the EU had presented no scientific or regulatory justification
                         for the moratorium and thus the moratorium resulted in undue delay
                         which is in violation of WTO rules. The WTO also identified specific
                         WTO-inconsistent “undue delays” with regard to 24 of the 27 pending
                         product applications listed in the complaint. Also, with respect to each of
                         the EU member state bans on biotech crops approved by the EU prior to
                         the adoption of the moratorium, the WTO Panel upheld the claim that in
                         light of positive safety assessments issued by the EU‟s own scientists,
                         the member state bans were not supported by scientific evidence and
                         were thus inconsistent with WTO rules. Although the EU has taken
                         some approval actions it has not met WTO requirements for lifting the
                         moratorium.

                         In January 2008, the U.S. Trade Representative‟s (USTR) office
                         commented on the expiration of the reasonable period of time for EU
                         compliance with the WTO ruling. The USTR‟s office announced that, in
                         light of this expiration, “[w]e are taking steps necessary under WTO
                         rules to preserve our right in the WTO to suspend trade concessions.”
                         The United States agreed with the EU to suspend, for a limited period,
                         the U.S. request for authority to suspend concessions so that the EU
                         could demonstrate meaningful progress on the approval of biotech
                         products. The office added that the goal was to normalize trade in
                         biotech products, not to impose trade sanctions on EU goods.
                         Negotiations to reach this goal are still ongoing.

                         Mandatory Labeling Requirements for GE Commodities

                         Many foreign countries—including most EU nations, as well as other
                         significant markets such as China, Australia, Japan, South Korea, and
                         others—have established mandatory labeling requirements for foods
                         derived from approved GE plants.

                         Traceability Requirements for Imported Agricultural Commodities

                         Mandatory labeling laws often require the “traceability” of food products
                         throughout the system of production. Traceability means that the
                         marketing system must have documentable ability to trace the presence
                         or absence of GE materials through each step from farm to point of sale.
                         Since the U.S. supply of corn and soybeans may contain approved
                         varieties of GE corn and soybeans, traceability requirements are difficult
                         for U.S. companies to meet. Industry representatives have argued that
                         “any regulatory measure that would lead to segregation [of the
                         production process for GE and non-GE grains] would raise handling
USDA/OIG-A/50601-14-Te                                                                       Page 3
                                         costs and potentially undermine the efficiency and competitiveness of
                                         th[e] system.”6

                                         Thresholds for the Trace Presence of GE Material in non-GE
                                         Commodities

                                         Many foreign countries have also imposed labeling thresholds for the
                                         unintended presence of a small amount of GE material in seed, grain, or
                                         feed and food products. The EU, for example, has threshold limits for
                                         grain containing more than .9 percent of approved GE varieties. Since,
                                         in the United States, grains of approved GE corn and soybeans may be
                                         commingled with non-GE corn and soybeans, all shipments of corn and
                                         soybeans may contain enough GE material to trigger EU‟s regulations on
                                         labeling threshold limits.

                                   U.S. producers thus confront an array of nontariff trade barriers when they
                                   attempt to export commodities that contain GE material.

Objective                          The objective of this audit was to assess USDA‟s role in promoting the
                                   export of GE agricultural commodities.




6
  Government Accountability Office (GAO)-01-727, “International Trade: Concerns Over Biotechnology Challenge U.S. Agricultural Exports,” p. 12,
June 2001.
USDA/OIG-A/50601-14-Te                                                                                                               Page 4
    Findings and Recommendations
    Section 1. A Coordinated, Comprehensive Strategy is Needed to Address Challenges
    U.S. Producers Face When Exporting GE Agricultural Commodities

                                         While U.S. producers have embraced the agricultural potential of new GE
                                         plant varieties, they have encountered numerous nontariff trade barriers
                                         preventing them from exporting commodities derived from these plants,
                                         especially in established markets, such as the EU and Japan. Faced with this
                                         long-term challenge to the health of U.S. exports, USDA has not developed a
                                         coordinated, comprehensive strategy for promoting the trade of agricultural
                                         commodities (including GE commodities), nor is there evidence that USDA
                                         has made significant progress in fulfilling the various biotechnology goals of
                                         the 2002 Farm Bill. USDA‟s research and public information
                                         accomplishments relating to exporting these commodities are limited and are
                                         not targeted towards any specific goal or trade challenge.

                                         USDA has established many different groups, offices, and positions with
                                         interests in agricultural biotechnology, yet biotechnology-related efforts at
                                         the departmental level have remained ad hoc, uncoordinated, or
                                         undocumented. Departmental officials responsible for providing leadership
                                         and direction on biotechnology-related activities within USDA advised they
                                         do not believe that USDA should be involved in controlling the market and
                                         that private entities are more responsive to market conditions. However, OIG
                                         maintains that USDA has a legitimate and necessary role to play in
                                         coordinating its many activities and in responding, on behalf of American
                                         producers, to barriers to the export of agricultural commodities.


Finding 1                                USDA Needs a Strategy Addressing the Challenges of Exporting
                                         GE Agricultural Commodities

                                         While U.S. agricultural producers have embraced biotechnology—planting
                                         around 143 million acres with GE crops, or 50 percent of the total global
                                         biotechnology derived acreage in 2007—many of our trading partners have
                                         erected stringent nontariff trade barriers regarding the importation of GE
                                         commodities.7 Among its many activities related to biotechnology, USDA
                                         has responded to specific trade disputes; most notably, the Department has
                                         sought to remove barriers to the importation of U.S. GE commodities through
                                         a successful WTO suit against the EU. However, USDA has not developed a
                                         comprehensive trade strategy that includes addressing the challenges of
                                         exporting GE agricultural commodities and coordinating all of the many
                                         biotechnology-related activities pursued within the Department. Developing
7
    See exhibit A for a comprehensive list of nations with such barriers.
USDA/OIG-A/50601-14-Te                                                                                          Page 5
                                     such a strategy is critical because the global market in GE agricultural
                                     products is especially volatile. During a downturn, planning is necessary to
                                     improve the competitiveness of American agriculture; during an upswing,
                                     planning will enable the United States to profit from markets favorable to
                                     U.S. producers‟ interests.

                                     The 2002 Farm Bill required the Secretary of Agriculture to develop a global
                                     marketing strategy that identifies opportunities for the growth of agricultural
                                     exports to overseas markets; ensures that all the resources, programs, and
                                     policies of the Department are coordinated with those of other agencies; and
                                     remove barriers to agricultural trade in overseas markets. 8 Since GE
                                     commodities are an increasingly important part of the U.S. agricultural
                                     sector, a well-designed global marketing strategy would include
                                     consideration of these commodities. This legislative requirement remains in
                                     effect under the 2008 Farm Bill.

                                     According to GAO, an effective national strategy—i.e., one that offers
                                     policymakers and implementing agencies a management tool that can help
                                     ensure accountability and more effective results—includes the following six
                                     elements: (1) a clear purpose, scope, and methodology; (2) a detailed
                                     discussion of the problems, risks, and threats the strategy intends to address;
                                     (3) the desired goals and objectives, and outcome-related performance
                                     measures; (4) a description of the U.S. resources needed to implement the
                                     strategy; (5) a clear delineation of the U.S. Government‟s roles,
                                     responsibilities, and mechanisms for coordination; and (6) a description of
                                     how the strategy is integrated internally among U.S. agencies and externally
                                     among the relevant international entities, such as the WTO.

                                     We found, however, that USDA has not developed such a strategy for U.S.
                                     agricultural products as a whole or for the subset of U.S. agricultural products
                                     developed with biotechnology. In a prior audit, we reported that USDA had
                                     not developed a focused global marketing strategy that would allow it to
                                     identify and react to changing trends in global markets for all U.S.
                                     agricultural commodities.9 USDA officials did not agree that such a strategy
                                     was necessary and asserted that the Department‟s practices and procedures
                                     related to market development were consistent with its strategic goals.

                                     Senior departmental officials explained that USDA has not developed such a
                                     strategy because they believe the Department should not be involved in
                                     controlling the market and that private entities are more aware of, and quicker
                                     to react to, market conditions than USDA. While this may be true, OIG
                                     maintains that, since trade barriers affecting GE commodities have been

8
  Public Law (P.L.) 107-171, “Farm Security and Rural Investment Act of 2002,” Title III - Trade, subtitle C - Miscellaneous, sec 3206 - “Global Market
Strategy,” May 13, 2002.
9
  OIG Audit Report No. 50601-12-At, “FAS Implementation of the Trade Title of the 2002 Farm Bill and the 2002 President‟s Management Agenda,”
March 2007.
USDA/OIG-A/50601-14-Te                                                                                                                       Page 6
                                      established by foreign governments, private entities have limited tools at their
                                      disposal for responding to such barriers. The U.S. Government thus has a
                                      legitimate role to play in dealing with other governments and furthering the
                                      interests of U.S. producers.

                                      USDA‟s strategic goals recognize the Department‟s responsibility to plan for
                                      market volatility, as well as intercede with foreign governments to promote
                                      the interests of American agriculture. USDA‟s first strategic goal is to
                                      “enhance [the] international competitiveness of American agriculture,”
                                      including working to expand “market access through reduction of nontariff
                                      barriers.”10 In order to accomplish this goal, the Department states the need
                                      for actionable strategies for “monitoring trade partner compliance with
                                      existing trade agreements and working with USTR to enforce those
                                      agreements;” “developing strategies to avoid and resolve individual
                                      problems, such as technical barriers to trade;” “interven[ing] with
                                      international Governments on behalf of U.S. agriculture;” and “researching
                                      and analyzing the effects of trade agreements, political and economic
                                      structural changes, and technological developments on the comparative and
                                      competitive advantages of U.S. agriculture.”

                                      Such planning is critical for promoting GE commodities because
                                      biotechnology is new to the marketplace and is subject to dramatic shifts in
                                      demand. GE crops represent only a fraction of U.S. agriculture production,
                                      but they represent an increasingly important fraction. Over the last decade,
                                      GE plantings in the United States increased from 3.6 million acres to
                                      143 million acres. For agricultural commodities such as soybeans and corn,
                                      U.S. production has largely become GE—the percentage of GE soybeans
                                      planted in the United States increased from 7 percent of the total acreage of
                                      soybeans planted in 1996 to 91 percent in 2007; during the same period the
                                      percentage of GE corn planted increased from 1 percent of the total acreage
                                      of corn planted to 73 percent. While many other food crops remain non-GE,
                                      scientists are continually experimenting with new plants, and scientific and
                                      commercial developments are ongoing.

                                      U.S. producers‟ adoption of this new technology has complicated agricultural
                                      trade with other nations, as several significant foreign markets have been
                                      reluctant to import GE agricultural commodities. Ultimately, this reluctance
                                      has become a trade dispute based on different notions of how GE food plants
                                      should be regulated, a dispute most clearly illustrated by the difference
                                      between positions taken by the United States and the EU. The U.S. position is
                                      that scientific studies of GE crops indicate that there is no difference between
                                      modified crops approved for commercialization in the United States and their
                                      unmodified equivalents; given their fundamental similarity, these products
                                      should be regulated no differently than their nonmodified equivalents, nor

10
     USDA Strategic Plan 2005-2010.
USDA/OIG-A/50601-14-Te                                                                                         Page 7
                                        subjected to mandatory labeling. The EU position—known as the
                                        “precautionary principle”—is that until definitive scientific proof is available
                                        that a new GE plant will have no long-term, negative consequences on public
                                        health and the environment, governments should regulate GE commodities
                                        aggressively.

                                        Senior USDA officials have stated that “[w]e believe that adherence to this
                                        so-called [precautionary] „principle‟ is not in fact what has motivated the EU
                                        government to act as it has.” Instead, they stated that the EU has used the
                                        “precautionary principle” as “an ex post facto justification for political
                                        decisions.” Political considerations—as well as consumers‟ perceptions of
                                        these commodities—may have influenced decisions made by those
                                        governments. However, part of developing a coordinated, comprehensive
                                        strategy for promoting the export of U.S. crops, including GE crops, would
                                        include devising appropriate means to overcome perceptions not based on
                                        sound science.

                                        In any case, following the “precautionary principle,” member states of the EU
                                        established nontariff trade barriers preventing the importation of U.S. GE
                                        commodities, including requirements that foods made from GE plants be
                                        labeled; that the marketing system must have the ability to document the
                                        presence or absence of GE material through each step from farm to point of
                                        sale; and that trace amounts of GE material found in non-GE commodities be
                                        severely limited.11 EU states have also declined to approve new varieties of
                                        GE plants, even though the EU has a science-based regulatory process for
                                        doing so.

                                        The adoption of regulatory systems that may impede or discourage trade in
                                        GE commodities is not restricted to the EU. Other nations—including
                                        significant trading partners such as Japan and South Korea—have erected
                                        trade barriers against the importation of U.S. GE agricultural commodities
                                        that resemble the EU‟s. As of 2004, FAS identified 50 countries with
                                        mandatory labeling laws, 31 with traceability requirements, and 54 with
                                        thresholds for trace GE material present in non-GE imports (see exhibit A).12
                                        If the 58 other countries without regulatory systems develop systems similar
                                        to those in the EU, U.S. exports could be negatively affected.

                                        From 1996 to 2006, the U.S. trade surplus in agricultural goods decreased
                                        from $27 billion to just $4.7 billion. Beginning in 2007, however, a number
                                        of economic factors—rapid growth in demand in developing countries like
                                        China and India, poor harvests due to adverse weather conditions, and the
                                        declining value of the dollar—converged to reverse these trends. In 2007, the
                                        U.S. trade surplus in agricultural goods rebounded to $12.1 billion, and is
                                        projected to reach $35 billion in 2008.
11
     These trade barriers are discussed more fully in the Background.
12
     After 2004, FAS no longer tracked this information.
USDA/OIG-A/50601-14-Te                                                                                           Page 8
                                     High food prices have meant that nations formerly reluctant to import U.S.
                                     GE food commodities have reconsidered their position. Japan and South
                                     Korea recently agreed to import U.S. GE corn for manufacturing sweeteners
                                     and starch.

                                     The reversal of this economic data should not, however, be taken as final. All
                                     markets rise and fall and, as we have already noted, this market has
                                     experienced a number of especially dramatic shifts in demand. In 2005, for
                                     instance, USDA learned that a regulated variety of GE corn was inadvertently
                                     harvested and exported. Major U.S. trading partners such as Japan and the
                                     EU reacted negatively and adopted emergency measures requiring testing of
                                     all U.S. corn. This incident could have adversely impacted an export market
                                     worth $1.9 billion.

                                     Similarly, on August 18, 2006, USDA announced that trace amounts of the
                                     regulated GE rice, LLRICE601, were detected in commercial long-grain rice,
                                     even though this rice had not been deregulated by USDA. According to a rice
                                     industry official, about 63 percent ($807 million) of the $1.28 billion export
                                     market was affected by importers‟ reaction to the presence of LLRICE601.
                                     The official further advised that the GE events in rice commerce have
                                     destroyed prior market gains and will take years to repair. 13 USDA officials
                                     recently advised us that the U.S. continues to expand long-grain rice sales.
                                     World-wide shipments to date in 2008 on a volume basis are almost
                                     23 percent ahead of the same period last year, while the value of exports is
                                     60 percent above last year.

                                     Despite the volatility of the international market in GE agricultural
                                     commodities, USDA has not developed a plan for responding to market
                                     developments. The challenges of this market were recognized as early as
                                     2000, when the Office of Science and Technology Policy (OSTP) published a
                                     report addressing the challenges U.S. producers face when planting GE crops.
                                     That report stated that USDA should (1) support an expanded research
                                     program focused on biotech safety issues, (2) develop reliable testing
                                     procedures for differentiating GE commodities, (3) enhance public education
                                     concerning biotechnology, and (4) provide farmers with reliable information
                                     on access to foreign markets.

                                     There have been a series of reports identifying biotechnology-related export
                                     challenges. In June 2001, GAO published a report discussing trade barriers
                                     preventing the export of U.S. producers‟ GE food commodities, especially in
                                     Europe. GAO identified several key challenges facing these commodities.
                                     GAO saw the regulatory conflict between the United States and the EU as
                                     problematic, and observed the rising tide of foreign trade barriers to these
                                     commodities and concluded that these barriers “could significantly increase
13
 This is testimonial evidence obtained from a representative from the rice industry; OIG did not validate the assessment of damage to the U.S. rice export
markets.
USDA/OIG-A/50601-14-Te                                                                                                                         Page 9
                                       production costs and disrupt trade.” GAO also noted that “the number of U.S.
                                       trade and regulatory agencies with biotech-related roles . . . creates a
                                       challenge for effective coordination.”14

                                       The concerns expressed in the OSTP and GAO reports were echoed in the
                                       2002 Farm Bill, where Congress established five provisions relating to trade
                                       and biotechnology.

                                            Section 3206 required that the Department develop and implement a
                                            global market strategy that identifies opportunities for the growth of
                                            agricultural exports to overseas markets; ensures that the resources,
                                            programs, and policies of the Department are coordinated with those of
                                            other agencies; and removes barriers to agricultural trade in overseas
                                            markets.

                                            Section 3204 established a biotechnology and trade program whose
                                            purpose is to remove, resolve, or mitigate significant regulatory nontariff
                                            barriers to the export of U.S. agricultural commodities into foreign
                                            markets.

                                            Section 7210 authorized biotechnology risk assessment research that
                                            would help identify and analyze the environmental effect of
                                            biotechnology, and help regulators develop long-term policies concerning
                                            the introduction of such technology.

                                            Section 7505 required that FAS establish and administer a program to
                                            make competitive grants to eligible entities to develop agricultural
                                            biotechnology for developing countries.

                                            Section 10802 required that the Secretary of Agriculture develop and
                                            implement a program to communicate with the public regarding the use
                                            of biotechnology in producing food for human consumption.

                                       In Finding 2, we discuss the actions USDA has taken to address these
                                       provisions of the 2002 Farm Bill, as well as how the 2008 Farm Bill has
                                       altered these requirements.

                                       In June 2003, the Congressional Research Service (CRS) issued a report
                                       describing the “widely divergent approaches to regulating biotechnology”
                                       being adopted around the globe. This report discussed U.S. concerns
                                       including the EU‟s moratorium on new GE approvals, labeling and
                                       traceability regulations, biosafety protocols, the effect of GE commodities on
                                       food aid, and the role biotechnology can play in developing countries.15 CRS

14
     GAO, “International Trade: Concerns Over Biotechnology Challenge U.S. Agricultural Exports,” pp. 8 and 13, June 2001.
15
     CRS, “U.S. Agricultural Biotechnology in Global Markets: An Introduction,” p. ii, June 19, 2003.
USDA/OIG-A/50601-14-Te                                                                                                       Page 10
                                       also described the numerous Federal agencies and departments that deal with
                                       issues affecting trade in GE commodities and concluded that coordinating
                                       these agencies‟ contributions was a significant challenge. According to CRS,
                                       “critics [have] assert[ed] that the U.S. response to biotechnology remains
                                       largely reactive, ad hoc, and not well coordinated.” These critics contend that
                                       “a more comprehensive long-term strategy is needed” (OIG‟s emphasis).16

                                       The utility of developing a trade strategy was demonstrated when the
                                       National Security Council prepared the U.S. position for its successful suit in
                                       WTO. In collaboration with FAS, the National Security Council developed,
                                       in 2002, a predecisional, deliberative, draft strategy for U.S. agricultural
                                       exports, including GE commodities. Although this strategy was revised in
                                       2006, it remained in draft and was not implemented by FAS or USDA.

                                       Industry representatives we interviewed from the North American Export
                                       Grain Association, Biotechnology Industry Organization, and North
                                       American Millers‟ Association stated that they believed USDA has done
                                       good work dealing with particular trade problems as they arise. However,
                                       they also argued that the Department could use a comprehensive, clearly
                                       articulated strategy—one that coordinates the many agencies concerned with
                                       GE crops and biotech issues. In addition to coordinating USDA groups,
                                       offices, and positions concerned with biotechnology, that strategy should also
                                       consider other departments and agencies with biotechnology-related interests,
                                       including the Departments of State and Commerce, FDA, and EPA.

                                       OIG concluded that the Department can improve how it responds to market
                                       volatility by developing a coordinated, comprehensive strategy for promoting
                                       the export of U.S. agricultural commodities, including GE crops. That
                                       strategy should coordinate all the various biotechnology-related activities
                                       discussed in Finding 3, and it should include plans for improving the
                                       competitiveness of American agriculture during economic downturns, as well
                                       as profiting from its advantages during periods of prosperity.

Recommendation 1
                                       Develop and implement a coordinated, comprehensive strategy for promoting
                                       the export of U.S. GE crops.

                                       Agency Response.

                                       In a response, dated January 27, 2009, the current Secretary of Agriculture
                                       stated that he had reviewed this report and determined it had merit. The
                                       Secretary stated that he had asked the Acting Under Secretary for Research,
                                       Education, and Economics to lead the Department‟s effort to develop a
                                       comprehensive strategy relating to the export of GE agricultural commodities

16
     CRS, “U.S. Agricultural Biotechnology in Global Markets: An Introduction,” p. 16, June 19, 2003.
USDA/OIG-A/50601-14-Te                                                                                       Page 11
                   and directed that the framework for such a strategy be completed within 6
                   months of the issuance of this report.

                   OIG Position.

                   We acknowledge the Secretary‟s plan for corrective action. To reach
                   management decision, additional information is needed as to the framework
                   of the comprehensive strategy.




USDA/OIG-A/50601-14-Te                                                              Page 12
Finding 2                           USDA Has Made Limited Progress in Completing Goals Related
                                    to Trade and Biotechnology

                                    When it passed the 2002 Farm Bill, Congress established five provisions that,
                                    together, mandated a vision of where the United States should be headed in
                                    terms of biotechnology and international trade. We found limited evidence
                                    that USDA has made measurable progress in fulfilling the various
                                    biotechnology goals of the 2002 Farm Bill, nor could we determine what
                                    progress USDA has made towards completing its strategic goals relating to
                                    trade and agricultural biotechnology. This occurred because USDA has not
                                    requested funds for three of the five provisions of the 2002 Farm Bill relating
                                    to biotechnology and had not developed performance measures tied to any
                                    specific goal or objective.17 Since, as reported in Finding 1, the Department
                                    lacked a coordinated, comprehensive strategy for biotechnology-related
                                    activities, USDA did not accomplish Congress‟ goals for biotechnology and
                                    international trade.

                                    On June 18, 2008, Congress enacted the Food, Conservation, and Energy Act
                                    of 2008 (referred to as the 2008 Farm Bill), which changed several of the
                                    provisions relating to biotechnology and trade. Below, we discuss the current
                                    status of each of these sections according to the 2002 and 2008 Farm Bills, as
                                    well as the current relevance of the programs they involve.18

                                         Section 3206—Global Market Strategy

                                         The 2002 Farm Bill required USDA to develop and implement a global
                                         marketing strategy that would identify opportunities for the growth of
                                         agricultural exports to overseas markets; ensure that the resources,
                                         programs, and policies of the Department were coordinated with those of
                                         other agencies; and remove barriers to agricultural trade in overseas
                                         markets.

                                         In a prior audit, we reported that, although FAS had implemented various
                                         measures to encourage strategic planning by its market development
                                         participants and to evaluate their export strategies, they needed to develop
                                         comprehensive strategies that can be implemented on a worldwide basis
                                         if U.S. trade goals are to be reached.19 Over the last decade, U.S.
                                         producers have adopted GE versions of several U.S. commodities—
                                         73 percent of corn and 91 percent of soybeans planted in the United

17
   The Government Performance and Results Act (GPRA) emphasizes a results-oriented process by requiring the development of a strategic plan, as well
as annual reporting, and by seeking specific measurable targets of performance and a data-based assessment of success.
18
   P.L. 110-246, “The Food Conservation and Energy Act of 2008,” enacted on June 18, 2008.
19
   OIG Audit Report No. 50601-12-At, “FAS Implementation of the Trade Title of the 2002 Farm Bill and the 2002 President‟s Management Agenda,“
March 2007.
USDA/OIG-A/50601-14-Te                                                                                                                  Page 13
                                             States are, as of 2007, planted with GE seeds. Given these facts, OIG
                                             maintains that a global marketing strategy should include strategies for
                                             expanding exports of GE commodities as part of its overarching strategies
                                             for U.S. agriculture.

                                             The 2008 Farm Bill did not repeal this requirement, and OIG believes that
                                             USDA continues to need a global marketing strategy.

                                             Section 3204—Biotechnology and Agricultural Trade Program

                                             The 2002 Farm Bill required USDA to establish a biotechnology and
                                             agricultural trade program intended to remove, resolve, or mitigate
                                             significant regulatory nontariff barriers to the export of U.S. agricultural
                                             commodities to foreign markets through public and private grants that
                                             address (1) quick response intervention regarding nontariff barriers to
                                             U.S. exports involving (a) U.S. agricultural commodities produced
                                             through biotechnology, (b) food safety, (c) disease, or (d) other sanitary
                                             or phytosanitary concerns; or (2) developing protocols as part of bilateral
                                             negotiations with other countries on issues such as animal health, grain
                                             quality, and genetically modified commodities.

                                             Congress authorized up to $6 million yearly for this section, but the
                                             Department did not seek apportionment of any funds until 2004.20 In that
                                             year, USDA requested and received $1.6 million and continued to receive
                                             $1.6 million in both fiscal years 2005 and 2006. Of the approximately
                                             $4.9 million received under this section, the Department used funds for
                                             several different activities:

                                                   $557,000 was used to maintain the Office of the Special Assistant to
                                                   the Secretary for Biotechnology (SASB), which is responsible for
                                                   coordinating departmental activities related to biotechnology;

                                                   FAS received $3 million for bilateral and multilateral trade
                                                   negotiations such as the U.S.-China Biotechnology Working Group,
                                                   U.S.-Japan negotiations, and international efforts such as biosafety
                                                   protocol negotiations and the U.S. WTO case against the EU;

                                                   APHIS received $1.1 million to initiate a transgenic animal unit,
                                                   perform scientific and environmental impact assessments, and
                                                   strengthen Federal-State partnerships;

                                                   The Cooperative State Research, Education, and Extension Service
                                                   (CSREES), the Agricultural Marketing Service, and the Grain
                                                   Inspection, Packers and Stockyards Administration (GIPSA) together

20
     The apportionment process is used by the Office of Management and Budget to monitor and disburse funds to agencies.
USDA/OIG-A/50601-14-Te                                                                                                     Page 14
                            received $242,000 to fund various special projects related to trade in
                            biotechnology, including GIPSA‟s laboratory certification program,
                            CSREES‟ program to implement a GE specialty crop initiative, and
                            the Agricultural Marketing Services‟ efforts to standardize
                            methodologies for testing GE seed.

                         Since the 2008 Farm Bill repealed this section, the Department can no
                         longer seek funding for these biotechnology-related activities.

                         Section 7210—Biotechnology Risk Assessment Research

                         The purpose of this section was to (1) authorize and support
                         environmental assessment research to help identify and analyze
                         environmental effects of biotechnology; and (2) authorize research to
                         help regulators develop long-term policies concerning the introduction of
                         such technology. It required USDA to establish a grant program
                         supporting environmental assessment to help identify and analyze the
                         environmental effects of biotechnology.

                         The following types of research were to be given priority for this
                         funding: (1) research designed to identify and develop appropriate
                         management practices to minimize physical and biological risks
                         associated with GE animals, plants, and microorganisms; (2) research
                         designed to develop methods to monitor the dispersal of GE animals,
                         plants, and microorganisms; (3) research designed to further existing
                         knowledge with respect to the characteristics, rates, and methods of gene
                         transfer that may occur between GE animals, plants, and
                         microorganisms,    and     related    wild      agricultural   organisms;
                         (4) environmental assessment research designed to provide analysis
                         comparing the relative impact of animals, plants, and microorganisms
                         modified through genetic engineering to other types of production; and
                         (5) other areas of research designed to further the purposes of this
                         section.

                         The 2002 Farm Bill specified that 2 percent of all funds spent on
                         biotechnology research should be allocated for biotechnology risk
                         assessment research. The Secretary assigned responsibility for
                         completing this section of the 2002 Farm Bill to CSREES, which used
                         the 2 percent allocation to fund the Biotechnology Risk Assessment
                         Grant (BRAG) program. These grants were funded for the express
                         purpose of determining what risks are associated with biotechnology.
                         From 2003 to 2006, CSREES funded 47 grants totaling $14.6 million.

                         BRAG grants funded a wide variety of projects, including studies titled
                         “The Risk of Western Corn Rootworm Adaptation to Transgenic Corn,”
                         “Tracking the Movements of Transgenic Toxins through Complex Food
USDA/OIG-A/50601-14-Te                                                                    Page 15
                         Webs,” “Industrial Crops: Demonstration of a Practical Seed Sterility
                         System,” and “Biological Containment of GE Fish.”

                         We found, however, no overall plan or strategy to direct, prioritize, and
                         use the research results to address the challenges U.S. producers face in
                         the market for GE commodities. The fiscal year 2007 request for
                         applications for BRAG grants in fact states that awards will not be made
                         for marketing or trade issues associated with genetically modified
                         organisms.

                         Environmental assessments may not have a direct bearing on trade, but
                         some consumers‟ resistance to these products is based on environmental
                         concerns. Scientific studies that could allay consumers‟ concerns about
                         the environmental effects of these products are thus indirectly related to
                         trade. Communicating safety protocols and control measures used when
                         planting and harvesting GE plants should result in better informed
                         consumers and greater willingness to buy these products. OIG thus
                         maintains that BRAG accomplishments should be included in an overall
                         strategy for addressing and mitigating trade challenges and barriers
                         related to GE products.

                         Since the 2008 Farm Bill did not repeal this section of the 2002 Farm
                         Bill, it remains in effect.

                         Section 7505—Agricultural Biotechnology Research and Development
                         for Developing Countries

                         The 2002 Farm Bill required that USDA establish and administer a
                         program to make competitive grants to eligible entities to develop
                         biotechnology for developing countries. These funds were to be used for
                         a variety of purposes, including: (a) enhancing the nutritional content of
                         agricultural products that can be grown in developing countries,
                         (b) increasing the yield and safety of agricultural products that can be
                         grown in developing countries, (c) increasing the yield of agricultural
                         products that are drought- and stress-resistant and that can be grown in
                         developing countries, (d) extending the growing range of crops that can
                         be grown in developing countries, (e) enhancing the shelf-life of fruits
                         and vegetables grown in developing countries, (f) developing
                         environmentally sustainable agricultural products that can be grown in
                         developing countries, and (g) developing vaccines to immunize against
                         life-threatening illnesses and other medications that can be administered
                         by consuming GE agricultural products.

                         FAS was assigned responsibility for completing this requirement. The
                         Office of Budget and Program Analysis stated that funds were not
                         available for some projects, and that FAS would try to comply with these
USDA/OIG-A/50601-14-Te                                                                    Page 16
                         sections of the 2002 Farm Bill through other funded sections. However,
                         FAS officials could not provide evidence of what was done.

                         With the passage of the 2008 Farm Bill, Congress extended this program
                         through 2012 under Section 7310 of the new legislation. The Secretary
                         of Agriculture recently emphasized its importance when speaking before
                         the United Nations‟ Food and Agriculture Organization in June 2008. He
                         remarked that by embracing new technologies and basic infrastructures,
                         nations can help make agriculture more resilient to climate variability
                         and climate change. He also commented that nations must therefore
                         invest in scientists and research institutions, and that they should work
                         together to identify and introduce existing and new technologies with the
                         potential to significantly boost crop yields. The Secretary also stressed
                         that in countries vulnerable to climatic or weather-related challenges,
                         new biotechnology-based solutions are imperative to growing viable
                         yields.

                         We concluded that the Department needs to make greater efforts to fully
                         implement this section of the 2002 Farm Bill.

                         Section 10802—Program of Public Education Regarding the Use of
                         Biotechnology in Producing Food for Human Consumption

                         The 2002 Farm Bill required USDA to develop and implement a
                         program to communicate with the public regarding the use of
                         biotechnology in producing food for human consumption. This program
                         would provide information concerning: (a) science-based evidence on
                         the safety of foods produced with biotechnology, and (b) scientific data
                         on the human outcomes of the use of biotechnology to produce food for
                         human consumption.

                         CSREES was responsible for this part of the 2002 Farm Bill. Instead of
                         establishing a program to specifically address the intended goals of this
                         provision, a CSREES official stated that he had been directed to review
                         preexisting programs to determine if any grants had been funded that
                         satisfied the legislative requirement. We determined that seven of these
                         grants CSREES identified were approved and funded prior to 2002; the
                         remaining six grants totaling $1.2 million were funded in 2002 or later.

                         Since the 2008 Farm Bill repealed this requirement, it is no longer in
                         effect.

                   In May 2000, OSTP published a position paper identifying the challenges
                   American producers face when planting GE crops. As OSTP argued, “one of
                   the most difficult choices a farmer faces each year is what to plant—what
                   types of crops and what specific varieties . . . [T]he current uncertainty in
USDA/OIG-A/50601-14-Te                                                                    Page 17
                                     overseas markets concerning biotech crops has made their selections even
                                     more difficult.”21 OSTP identified a number of specific challenges USDA
                                     must overcome to help U.S. producers. Many of these suggestions relate to
                                     improving the available science on GE crops. OSTP suggested that USDA,
                                     FDA, and EPA “support an expanded program of competitively awarded,
                                     peer-reviewed research focusing on current and future safety issues” and
                                     “coordinate their research programs related to risk assessment of agricultural
                                     biotechnology and expand these programs . . . in a way that maintains a
                                     strong science-based regulatory program.”22 OSTP suggested that USDA
                                     facilitate “the creation of reliable testing procedures and quality assurance
                                     programs for differentiating non-bioengineered commodities to better meet
                                     the needs of the market;” “enhance domestic and foreign public education
                                     and outreach activities to improve understanding of the nature and strength of
                                     our regulatory process;” and “provide farmers with reliable information on
                                     markets to inform their planting decisions and with best farming practices for
                                     new crop varieties.”23 OSTP concluded that by disseminating information
                                     more effectively, USDA could help reluctant consumers learn more about the
                                     benefits of biotechnology and help producers determine which varieties of
                                     GE plants consumers were ready to accept.

                                     The GPRA requires agencies to develop strategic plans, set performance
                                     goals, and report annually on actual performance compared to goals.24 Efforts
                                     to meet goals must be measurable and reportable. However, we could not
                                     determine what measurable progress USDA has made towards accomplishing
                                     its strategic goals relating to trade and agricultural biotechnology. We also
                                     could not determine the effectiveness of the Department‟s implementation of
                                     the 2002 Farm Bill provisions in disseminating information (and other
                                     outreach efforts) to mitigate the public‟s concerns, both domestically and
                                     abroad, on biotechnology and its products.

                                     OIG believes that the three requirements of the 2002 Farm Bill not repealed
                                     by the 2008 Farm Bill continue to be relevant to the contemporary global
                                     trade situation, and that USDA should take steps to fully implement them.
                                     Department officials have argued that “several of these Farm Bill provisions,
                                     although authorized, were not funded.” However, we found that the
                                     Department requested funds for only two of these five sections, and in those
                                     cases, it received funding. In line with the Department‟s strategic plans and
                                     strategic plans for FAS and CSREES, program agency officials, in
                                     consultation with the SASB, should develop plans and request funds to
                                     implement these Farm Bill provisions.



21
   OSTP, “Food and Agricultural Biotechnology Initiatives: Strengthening Science-Based Regulation,” p. 5, May 3, 2000.
22
   ibid.
23
   ibid.
24
   OMB Circular A-123, "Management's Responsibility for Internal Control," sec. 3, December 21, 2004.
USDA/OIG-A/50601-14-Te                                                                                                   Page 18
                   Since 2001, the Department has received an average of $288 million for
                   biotechnology-related programs, but it cannot state how much of these funds
                   were used to promote U.S. producers‟ export interests. OIG maintains that by
                   developing a coordinated, comprehensive strategy designed to address and
                   mitigate GE trade challenges and barriers, USDA could make better informed
                   decisions about how future funds should be distributed.

Recommendation 2
                   Integrate each of the three remaining biotechnology-related requirements
                   from the 2002 Farm Bill into the strategy developed in response to
                   Recommendation 1.

                   Agency Response.

                   The January 27, 2009 response to the audit did not specifically address
                   Recommendations 2 through 5; it did, however, state that USDA will develop
                   the framework for a comprehensive strategy relating to the export of GE
                   agricultural commodities within 6 months of the issuance of this report.

                   OIG Position.

                   To reach management decision, specific information is needed describing
                   how the comprehensive strategy will address corrective actions to implement
                   the three still-relevant provisions of the 2002 Farm Bill. The importance of
                   the three cited provisions was recently emphasized by Congress when the
                   2008 Farm Bill was enacted and these three provisions remained.

Recommendation 3
                   Assist appropriate program agency officials in developing plans to implement
                   the Farm Bill provisions in line with the Department‟s and program agencies‟
                   strategic plans and priorities and in requesting funds to implement each of
                   these provisions. If USDA decides that funding is not necessary, then the
                   Department should document why funding is not being requested.

                   Agency Response.

                   The January 27, 2009 response did not specifically address Recommendation
                   3; it did, however, state that USDA will develop the framework for a
                   comprehensive strategy relating to the export of GE agricultural commodities
                   within 6 months of the issuance of this report.

                   OIG Position.

                   To reach management decision, information will be needed as to how the
                   strategy will address actions to be taken in response to this recommendation.

USDA/OIG-A/50601-14-Te                                                                  Page 19
Recommendation 4
                   Develop performance measures to evaluate the effectiveness of the
                   Department‟s biotech trade-related activities.

                   Agency Response.

                   The January 27, 2009 response did not specifically address actions to be
                   taken in response to this recommendation.

                   OIG Position.

                   To reach management decision, plans for the development             and
                   implementation of performance measures need to be provided.




USDA/OIG-A/50601-14-Te                                                             Page 20
Finding 3                            USDA’s GE Commodities Trade Efforts Need Better Coordination
                                     and Oversight by Senior Departmental Officials

                                     One of USDA‟s long-term strategies is to “conduct research to support the
                                     development and marketing of bio-based products . . . [and] to expand the
                                     range of agricultural products in the marketplace.”25 As GE plants have
                                     become more important to the U.S. agricultural sector, USDA has established
                                     several groups, offices, and positions with responsibilities for various aspects
                                     of biotechnology. Viewed collectively, the Department employs hundreds of
                                     scientists, trade specialists, and administrators concerned, in their different
                                     ways, with promoting and exploring the potential of biotechnology.
                                     However, without a comprehensive strategy (see Finding 1), we found that
                                     the Department‟s efforts to promote and market biotechnological products
                                     have been ad hoc, uncoordinated, and inadequately documented. Although
                                     the position of the SASB was created to coordinate and direct biotechnology
                                     activities, this official functioned more as an advisor and facilitator than as a
                                     coordinator. As a result, a coordinated approach to addressing the
                                     Department‟s first strategic goal, particularly as it applies to biotechnology
                                     trade issues, cannot be demonstrated.

                                     Since 2001, USDA has spent an average of about $288 million on
                                     biotechnology-related programs. USDA assigned several agencies and has
                                     established many groups with responsibilities relating to different facets of
                                     trade in biotech agricultural commodities. We found, however, that their
                                     activities were not coordinated or integrated into an overall strategy for
                                     resolving or mitigating trade issues. A description of each of these activities
                                     follows.

                                            Special Assistant to the Secretary for Biotechnology (SASB)

                                            In 2003, the Secretary of Agriculture established the position of SASB to
                                            offer advice and guidance to the Department and provide “senior[-]level
                                            leadership in the planning, initiation, and execution of biotechnology
                                            policy and operations for the Department.” As the direct advisor to the
                                            Secretary, SASB‟s major responsibilities and duties include
                                            “develop[ing] and implement[ing] strategies to fulfill U.S. strategic
                                            interests with respect to biotechnology activities; coordinat[ing] USDA
                                            biotechnology activities within USDA and with other [F]ederal agencies;
                                            [and] provid[ing] coordination among and advice to officials in APHIS,
                                            FAS, and other USDA agencies involved with biotechnology activities.”


25
  The “USDA Strategic Plan 2000-2005” identifies this as a long-term strategy for addressing strategic goal 1: “Enhance economic and trade opportunities
for U.S. agricultural producers,” pp. 21 and 28, September 2000.
USDA/OIG-A/50601-14-Te                                                                                                                      Page 21
                                           When we spoke with the official who served as SASB from April 2004
                                           to March 2006, however, we learned that the former SASB was reluctant
                                           to develop written strategies and did not see a need for planning. The
                                           SASB informed us that USDA did not have a formally structured biotech
                                           policy, and explained that the Department had not addressed and
                                           analyzed what sort of plan it should have. The SASB stated that she
                                           would “hate to see the Department writing strategy rather than doing
                                           strategy,” and questioned whether developing such a strategy would be
                                           an effective or efficient use of resources. The SASB did not, however,
                                           provide an alternate method for determining what would be an efficient
                                           or effective use of resources in the absence of a written strategy. SASB
                                           further stated that trade barriers to GE commodities should be treated
                                           like other nontariff trade barriers, and cautioned against taking GE
                                           commodities out of context and developing separate strategies for them.

                                           Given the growing importance of agricultural trade to the U.S. economy
                                           and the growing prevalence of GE commodities as part of U.S.
                                           agricultural exports, we question this position. The U.S. Government has
                                           a major role to play in negotiating to remove, resolve, or mitigate these
                                           barriers, especially since many of these trade barriers have been
                                           established by other governments.

                                           OIG maintains that, since there are a number of stakeholders that deal
                                           with biotechnology—often from different perspectives—a written
                                           strategy is crucial for coordinating their contributions and ensuring that
                                           they are working towards common goals.

                                           Biotechnology Policy Group (BPG)

                                           USDA convenes two different policy groups to discuss and comment on
                                           biotechnology—the first of these groups is BPG. Although there was no
                                           formal directive to establish BPG, it was started on an ad hoc basis
                                           around the time of the StarLink corn event (2000-2001).26 No written
                                           directives govern the group‟s activities, authorities, and responsibilities.
                                           A member of BPG stated that the group was always “irregular and
                                           entirely informal”—he could not state exactly when it was formed or
                                           when it acquired its name.

                                           Senior departmental staff—such as the SASB, Under Secretaries, or
                                           Deputy Under Secretaries of USDA‟s mission areas—usually attend
                                           BPG meetings, although others might be asked to participate if their
                                           expertise were required. Generally, one BPG member stated that these
                                           meetings are convened as needed if there is a significant update

26
   Aventis CropScience genetically engineered StarLink corn for resistance to caterpillar pests and tolerance to herbicides. EPA approved StarLink corn
for animal feed, but not for human consumption. An independent testing lab found StarLink corn in taco shells in September 2000. The unauthorized
release of StarLink corn into the human food supply resulted in product recalls, buyback programs for the corn, and reduced corn exports.
USDA/OIG-A/50601-14-Te                                                                                                                     Page 22
                                          involving a new technology, a regulatory development, or a policy
                                          decision to be made.

                                          BPG meetings were held infrequently, conducted informally, and its
                                          proceedings were not documented. According to a BPG member,
                                          meetings were held only once or twice a year, on an ad hoc basis, and
                                          typically no written agendas were developed. No record was maintained
                                          of who attended these meetings, what issues were discussed, or what
                                          decisions were made. One of the participants in BPG meetings stated that
                                          the group is, “if anything, . . . losing an official title, and is just a meeting
                                          called with relevant individuals on an as needed basis.” This official
                                          stated that BPG has largely been superseded by weekly meetings with
                                          the chief of staff.

                                          Biotechnology Coordinating Group (BCG)

                                          The second of these departmental groups is BCG. Like BPG, BCG is
                                          informal; no departmental directive established the group. Currently, the
                                          biotechnology coordinator—an assistant to the SASB—convenes
                                          meetings of BCG; he also develops the agenda for BCG, but no minutes
                                          are kept.

                                          BCG is attended by representatives chosen by administrators of the
                                          various USDA agencies. Agencies and offices that are represented in
                                          BCG have included APHIS, Agricultural Marketing Service, GIPSA,
                                          Economic Research Service, Agricultural Research Service (ARS),
                                          Forest Service, Food Safety and Inspection Service, FAS, Office of the
                                          Chief Economist, Office of Budget and Program Analysis, Natural
                                          Resources Conservation Service, and CSREES. As schedules permit,
                                          BCG meets every two weeks to review positions for international
                                          negotiations on biotechnology, share information about departmental
                                          efforts involving biotechnology, and help frame or identify issues for 21st
                                          Century Agriculture‟s (AC21) or BPG‟s consideration. We reviewed
                                          BCG agendas provided by the biotechnology coordinator, and they
                                          indicated that meetings were called to discuss issues such as APHIS‟
                                          policy on low-level intermittent presence, bilateral negotiations with
                                          Japan, and a CODEX committee meeting on methods analysis and
                                          biotech testing guidelines.27 Because no minutes were kept, we could not
                                          determine what actions were taken to address these issues.




27
  CODEX Alimentarius is an international working group that develops international standards relating to food safety. USDA actively participates and
presents policy statements to CODEX for review and discussions.
USDA/OIG-A/50601-14-Te                                                                                                                  Page 23
                                       Advisory Committee on Biotechnology and AC21

                                       Recognizing the importance of biotechnology for the future of American
                                       agriculture, USDA established in 2002 an advisory panel comprised of
                                       biotechnology experts from a range of fields.28 Unlike BPG and BCG,
                                       AC21‟s structure was formally established. The committee is made up of
                                       20-25 members, as well as 7 ex officio members from Federal and State
                                       agencies outside USDA. AC21 members are drawn from a variety of
                                       fields, including the academic community, consumer rights advocates,
                                       and corporate interests. They are appointed by the Secretary for a term of
                                       up to 2 years. AC21 is chaired by a member selected by the Secretary.

                                       AC21 was tasked with “provid[ing] information and advice to the
                                       Secretary of Agriculture related to the use of biotechnology in
                                       agriculture. The committee is charged with examining the long-term
                                       impacts of biotechnology on the U.S. food and agriculture system and
                                       USDA, and providing guidance to USDA on pressing individual issues.”
                                       AC21 is only an advisory committee. It serves the Department as an
                                       external think-tank, and it issues reports to the Secretary, who is then
                                       responsible for determining what, if any, action should be taken.

                                       AC21 has published four reports on the emerging 21st century global
                                       agricultural market, each of which has dealt with trade in biotech
                                       agricultural commodities:

                                            “Preparing for the Future,” published on May 9, 2005, imagined and
                                            described several different scenarios for how agricultural
                                            biotechnology might progress in the 21st century.

                                            “Global Traceability and Labeling Requirements for Agricultural
                                            Biotechnology-Derived Products: Impacts and Implications for the
                                            United States,” published on May 9, 2005, describes the current
                                            status of varying labeling and traceability requirements in the global
                                            agricultural marketplace. AC21 noted that the “complexity of
                                            complying with multiple labeling and traceability requirements . . .
                                            differ[ing] by market and country imposes additional costs and
                                            inefficiencies on the supply chain.”29 AC21 suggested that there was
                                            a need for international standards on food safety issues relating to GE
                                            crops.

                                            “Opportunities and Challenges in Agricultural Biotechnology in the
                                            Decade Ahead,” published on July 13, 2006, discussed many
                                            controversial issues in the field of biotechnology and stated minority
28
  AC21 was established by Departmental Regulation 1043-049, March 20, 2006.
29
  USDA Advisory Committee on Biotechnology and AC21, “Global Traceability and Labeling Requirements for Agricultural Biotechnology-Derived
Products: Impacts and Implications for the United States,” p. 32, May 9, 2005.
USDA/OIG-A/50601-14-Te                                                                                                         Page 24
                            and majority positions within the group, as different positions were
                            often represented. For instance, AC21 members expressed widely
                            differing opinions on labeling foods from GE plants. Some members
                            believed that consumers have a fundamental right to know what is
                            contained in their food; others believed that such labels would
                            confuse consumers since a food derived from GE plants is
                            fundamentally indistinguishable from its nonmodified equivalent.

                            “What issues should USDA consider regarding coexistence among
                            diverse agricultural systems in a dynamic, evolving, and complex
                            marketplace?” published March 5, 2008. This report discusses the
                            need for continued existence of and support for those factors
                            enabling coexistence among identity-preserved conventional,
                            organic, and GE production.

                         According to a member of BPG, all four of these reports have been
                         widely read by officials concerned with biotechnology. These reports
                         were intended to describe complex issues surrounding the use of
                         biotechnology in agriculture; they have not included specific
                         recommendations. As one BPG member remarked, it would be very
                         difficult to obtain consensus from a committee as diverse as AC21 on
                         any specific recommendation. Since AC21 reports present issues and
                         concerns related to biotechnology, OIG believes these reports should be
                         a useful tool in developing an overall strategy for coordinating
                         biotechnology-related activities and promoting the export of U.S. GE
                         agricultural products.

                         Because USDA does not have an overall strategy for coordinating
                         biotechnology-related activities or promoting the export of U.S. GE
                         products, there is no indication that specific actions were coordinated by
                         USDA to address issues raised in these reports.

                         Capacity Building and Outreach Activities

                         The Department has stated that it has initiated a number of actions in
                         terms of capacity building and outreach activities. These efforts include
                         working with the economies of Asia Pacific Economic Cooperation
                         (APEC); negotiating bilaterally with China; working with the Inter-
                         American Institute for Cooperation on Agriculture (IICA); and
                         negotiating under the auspices of the North American Biotechnology
                         Initiative (NABI).




USDA/OIG-A/50601-14-Te                                                                    Page 25
                         Asia Pacific Economic Cooperation (APEC)

                         APEC is a public sector forum established in 1989 to promote
                         greater economic and trade cooperation along the Pacific Rim.
                         APEC is governed by an annual ministerial meeting of foreign
                         ministers and the trade ministers of member economies that
                         delegate responsibilities to APEC senior officials. Senior official
                         meetings are held about four times a year.

                         Since its inception, APEC has worked to reduce tariffs and other
                         trade barriers across the Asia-Pacific region to create efficient
                         domestic economies, increase exports, and enhance free and open
                         trade and investment. APEC also works to create an environment
                         for the safe and efficient movement of goods and services across
                         borders in the region through policy alignment and economic and
                         technical cooperation.

                         In 2001, APEC called for the establishment of High Level Policy
                         Dialogue on Agricultural Biotechnology to be chaired by the
                         United States. The Department advised OIG that the intended
                         purpose of the policy dialogue is for APEC‟s member economies
                         to exchange information and achieve consensus on the
                         importance of biotechnology to agricultural productivity, the
                         environment, and food security.

                         North American Biotechnology Initiative (NABI)

                         Since its inception in 2002, the NABI has been intended to foster
                         closer, more positive working relations between the three
                         member countries—Mexico, Canada, and the United States. The
                         Department advised OIG that NABI serves as a forum for
                         exchanging ideas and information, and for addressing issues
                         related to the regulation of, and trade in, bioengineered products.
                         NABI sessions focus on broad themes such as biodiversity,
                         coordination on biotech-related policy issues, training and
                         capacity building, biotechnology intellectual property,
                         harmonization of regulatory approaches for agricultural
                         biotechnology products, and collaboration with international
                         organizations.

                         According to USDA officials, activities under NABI were
                         instrumental in initiating the “trilateral arrangement” between the
                         United States, Canada, and Mexico on documentation
                         requirements for the Cartagena Protocol on Biosafety. USDA has
                         also stated that NABI activities helped facilitate Mexico‟s
                         passage in early 2005 of comprehensive biosafety legislation
USDA/OIG-A/50601-14-Te                                                             Page 26
                         which will continue to enable bilateral trade with the United
                         States and help preserve U.S. coarse grain and soybean exports to
                         Mexico, valued at close to $2.3 billion annually.

                         Inter-American Institute for Cooperation on Agriculture (IICA)

                         IICA is a specialized agency of the Inter-American System, and
                         its purpose is to encourage and support the efforts of its member
                         states to achieve agricultural development and well-being for
                         rural populations. IICA provides innovative technical cooperation
                         to the member states, with a view to achieving their sustainable
                         development.

                         According to departmental officials, FAS has taken the lead in
                         establishing and providing guidance to IICA‟s Hemispheric
                         Biotechnology and Biosafety Program. The Department advised
                         OIG that the hemispheric program was approved by IICA‟s
                         executive board in September 2006, following a mandate from
                         the Inter-American Board on Agriculture. One purpose of the
                         hemispheric program is to facilitate mechanisms for the
                         development, management, and responsible use of biotechnology
                         in order to promote competitive and sustainable agriculture in the
                         Americas.

                         Bilateral Negotiations with China

                         Currently the largest market for U.S. agricultural biotechnology
                         products, China is also the fifth largest producer of
                         biotechnologically enhanced plants based on total number of
                         acres, and is developing a strong biotech research program. China
                         is set to become an even larger player in agricultural
                         biotechnology as it has just ratified the Biosafety Protocol.

                         According to departmental officials, significant barriers still exist
                         for U.S. biotech products entering the Chinese market. These
                         barriers include requirements that products be fully approved first
                         in the originating country before they can be approved in China,
                         duplicative testing for products already approved in the United
                         States, lack of a regulatory framework for GE events with
                         multiple traits, and holding only two windows a year for
                         acceptance of applications for new products.

                         However, USDA officials have stated that the United States and
                         China are working closely on several fronts to assist China in its
                         capacity to effectively and fairly handle its biotechnology sector.

USDA/OIG-A/50601-14-Te                                                               Page 27
                                            Foreign Agricultural Service (FAS)

                                            FAS supports USDA‟s strategic goal of enhancing the competitiveness
                                            of U.S. agriculture. Among its many responsibilities, FAS serves U.S.
                                            agriculture‟s interests by expanding and maintaining international export
                                            opportunities for U.S. products. It also supports international economic
                                            development and trade capacity building, and improving the global
                                            sanitary and phytosanitary regulatory system to facilitate international
                                            trade. FAS‟ core objective is to expand overseas market opportunities. Its
                                            duties include serving as first responders in cases of market disruption,
                                            providing critical market and policy intelligence to support our strategic
                                            goals, and representing U.S. agriculture in consultations with foreign
                                            governments.30

                                            On November 13, 2006, FAS implemented a far-reaching reorganization
                                            designed to focus its efforts on inherently governmental activities. Prior
                                            to this date, FAS had established a biotechnology group that was charged
                                            with promoting the export of U.S. GE agricultural commodities. During
                                            the 4 years of its existence, the biotechnology group dealt with trade
                                            problems on an ad hoc, reactive basis.

                                            As part of its reorganization, FAS implemented a new plan for receiving
                                            information from its liaison officers stationed in foreign countries. These
                                            liaisons will now be submitting country strategy statements for their
                                            country that technicians in FAS‟ new Office of Country and Regional
                                            Affairs will evaluate and use to develop specific strategies relevant to
                                            that country. These strategies will address trade practices and restrictions
                                            for all imports, including GE-derived commodities. USDA officials
                                            advised us that individual country strategy statements for the 2008 cycle
                                            have incorporated GE marketing goals as appropriate.

                                            FAS representatives serving in foreign countries actively report on
                                            market conditions in their countries. They submit Global Agriculture
                                            Information Network (GAIN) reports, which detail trade obstacles U.S.
                                            agricultural commodities—including GE crops—may face in that
                                            country‟s market. We found that these reports contained valuable and
                                            relevant information, including a list of biotechnology products approved
                                            in the relevant market, a description of marketing issues, and instructions
                                            for labeling products for those markets. These reports are published on
                                            the Internet and are made available to the public. We noted, however,
                                            that the GAIN reports are not being summarized or analyzed on a global
                                            level. We conclude that this is a missed opportunity, as these reports
                                            might prove useful for the Department‟s senior-level policy meetings
                                            involving the BCG and BPG.

30
     USDA's 2008 Budget, vol. 2, p. 21-1.
USDA/OIG-A/50601-14-Te                                                                                         Page 28
                                              Animal and Plant Health Inspection Service (APHIS)

                                              Within USDA‟s APHIS, the agency‟s Biotechnology Regulatory
                                              Services (BRS) regulates new GE plants while they are under field
                                              testing development. BRS deregulates a new GE plant when it is
                                              determined that the GE species does not pose a risk as a plant pest or a
                                              risk to the environment, and is safe to grow. In the United States,
                                              deregulated GE grains may be freely sold and commingled with non-GE
                                              grains, subject to any contractual arrangements between buyer and seller.

                                              When determining if a new GE plant should be deregulated, BRS uses a
                                              science-based process along with the results of field tests to determine
                                              whether or not GE commodities are safe to grow. According to senior
                                              departmental officials, APHIS‟ BRS approaches this decision from a
                                              purely scientific point of view in that it determines if the plant is a plant
                                              pest; issues and risks that are not science-based, such as consumer
                                              acceptance and marketability of GE products, are not part of APHIS‟
                                              analysis. Once the GE plant is deregulated, the new variety may be
                                              developed further through traditional breeding and produced, marketed,
                                              distributed, and grown without any other special oversight on APHIS‟
                                              part. There is no requirement in Federal regulations to include market or
                                              public acceptance in this determination, nor is BRS required to consider
                                              U.S. trade implications before it deregulates a GE plant.

                                              In one recent instance, BRS received a petition to deregulate a new GE
                                              plant that some U.S. producers feared could compromise their trade with
                                              countries where the new plant was not approved. U.S. wheat producers
                                              rejected the new GE variety of wheat BRS was requested to deregulate.
                                              The petition for deregulation was later withdrawn. However, FDA did
                                              issue a Biotechnology Consultation Agency Response Letter, which
                                              allowed the life science company to commercialize the product as safe to
                                              eat. According to news reports, producers feared that GE wheat would
                                              rapidly spread throughout the country, and that the U.S. supply of wheat
                                              could become commingled with GE grains. If the EU did not approve
                                              this variety of wheat and EU members did not import it, American
                                              producers would stand to lose a percentage of this market—worth
                                              $3.6 billion in 2000-2002, or 7 percent of all American agricultural
                                              exports.31

                                              In other instances, GE plants that received permits for field testing and
                                              were still regulated were released into the environment and commingled
                                              with non-GE crops. This caused substantial short term losses to U.S.
                                              exporters of the affected agricultural crops. According to USDA
                                              officials, following the August 2006 announcement of trace amounts of

31
     CRS, “U.S. Agricultural Biotechnology in Global Markets: An Introduction,” pp. 2-3, June 19, 2003.
USDA/OIG-A/50601-14-Te                                                                                            Page 29
                         GE rice detected in the U.S. commercial long-grain rice supply, the EU,
                         which normally imports about 250,000-300,000 metric tons of U.S.
                         long-grain rice, issued sampling and testing requirements that constituted
                         a de facto prohibition on U.S. rice. Russia, however, was the only
                         country that officially closed its market to U.S. rice but since has
                         reopened that market. Furthermore, USDA asserted that other markets
                         showed no discernable disruptions.

                         One industry representative stated “we are increasingly frustrated by the
                         apparent lack of ability on the part of private companies and Federal
                         regulators to control research and maintain accountability of the resulting
                         products. The current approach to research, development, and
                         management in the biotechnology industry must be replaced with more
                         conservative methodologies.” This industry representative stated that he
                         believes there must be market acceptance and approval prior to
                         regulatory approval of GE plants in the United States. This statement
                         was precipitated by failure of a life science company to follow
                         prescribed directives for regulated GE commodities, leading to
                         commingling of a regulated GE commodity with domestic non-regulated
                         commodities.

                         Grain Inspection, Packers and Stockyards Administration (GIPSA)

                         GIPSA facilitates the marketing of grains and oilseeds through various
                         services, including verifying the accuracy of tests used to detect GE
                         plants. GE commodities present a special testing challenge because these
                         commodities are superficially identical to their unmodified equivalents.
                         Ensuring that accurate and reliable tests are available to test the presence
                         and quantity of biotech material in a given sample is thus crucial to
                         commerce.

                         In 2002, GIPSA began offering a voluntary proficiency program to
                         provide standardization of testing in the commercial market. Rather than
                         providing tests, GIPSA evaluates and reports on the proficiency of
                         private, academic, and public sector laboratories to detect GE events in
                         grain and oil seeds. GIPSA also evaluates the performance of
                         commercially available rapid protein based test kits upon request of the
                         manufacturer. To verify the accuracy of these tests, GIPSA must have
                         access to reference samples of genetic material, specific information on
                         genetic sequences, and analytical techniques. Because this proprietary
                         information belongs to the company that developed the GE plant, biotech
                         companies are not required to provide this information to GIPSA, but do
                         so on a voluntary basis.

                         GIPSA also works to establish international standards relating to
                         testing—a critical issue for commerce. To this end, GIPSA works with
USDA/OIG-A/50601-14-Te                                                                      Page 30
                         CODEX Alimentarius, the National Institute for Standards and
                         Technology, and other organizations to develop official methods and
                         references that will be recognized on a global basis.

                         GIPSA is a member of BCG, but its participation is mostly a matter of
                         offering its technical expertise regarding testing. As the Department
                         develops a coordinated, integrated strategy for promoting the export of
                         U.S. GE agricultural commodities in the global market, it should better
                         integrate GIPSA‟s laboratory certification program within those efforts.

                         Agricultural Research Service (ARS) and Cooperative State Research,
                         Education, and Extension Service (CSREES)

                         ARS and CSREES each support research into biotechnology-related
                         projects, some of which may affect U.S. trade. As the principal research
                         agency of the USDA, ARS conducts research directed at developing and
                         transferring technological solutions to the agricultural sector. From
                         2005-2007, ARS spent on average approximately $178 million on
                         research in the biological sciences, including biotechnology; during the
                         same period, CSREES funded an additional $106 million in grants for
                         similar research.

                         We found no evidence that research was planned or targeted to address
                         specific priorities in biotechnology trade challenges, such as reducing the
                         risk or disseminating information to mitigate the risk of biotechnology
                         agricultural products. Moreover, ARS officials we spoke to described
                         their participation on BCG as purely advisory, relating mainly to
                         technical matters—CSREES officials also attend these meetings.

                         As the Department develops a strategic plan for promoting the export of
                         U.S. GE crops, it should work to better integrate research into the overall
                         strategy for addressing and mitigating GE trade challenges and barriers.

                   We conclude that the Department needs to better coordinate its various
                   biotechnology-related activities to meet the Department‟s strategic goal of
                   expanding economic and trade opportunities for U.S. producers. Once it
                   establishes a comprehensive, integrated strategy for promoting the export of
                   U.S. GE commodities, it should develop processes that measure USDA‟s
                   progress towards the goals articulated in that strategy and the overall goals of
                   the Department.




USDA/OIG-A/50601-14-Te                                                                     Page 31
Recommendation 5
                   Formalize and better document existing processes to effectively coordinate
                   and utilize USDA‟s various biotechnology-related activities in developing its
                   strategies for resolving or mitigating GE trade barriers.

                   Agency Response.

                   The January 27, 2009, response did not specifically address actions to be
                   taken in response to this recommendation.

                   OIG Position.

                   To reach management decision, specific information is needed as to how and
                   when USDA will formalize and better document existing processes to more
                   effectively coordinate biotechnology-related activities, including any
                   activities and initiatives resulting from the planned comprehensive strategy.




USDA/OIG-A/50601-14-Te                                                                  Page 32
Scope and Methodology
                 Our audit work focused primarily on identifying the role of USDA agencies in
                 the export of GE commodities, including policies and procedures used to
                 enhance the international competitiveness of U.S. agriculture. We evaluated the
                 Department‟s role in the export of GE commodities, and reviewed its efforts to
                 develop a proactive trade strategy and establish a coordinated, integrated
                 strategy for promoting the export of U.S. GE agricultural commodities.

                 Our fieldwork was conducted at the USDA Headquarters in Washington, D.C.,
                 from November 2005 to March 2006 and covered calendar years 2002 through
                 2006. We solicited additional documents and conducted followup interviews
                 through August 2008.

                 To accomplish our audit objective, we:

                    interviewed representatives from USDA, the SASB‟s office, and individual
                    agencies to determine how they contribute to the Department‟s role in the
                    export of GE commodities;

                    submitted written questionnaires, requested documents, reviewed
                    documentation, and conducted interviews at applicable USDA agencies;

                    analyzed the Department‟s efforts to create a global market strategy
                    addressing agricultural trade issues;

                    interviewed trade industry sources and private commodity associations to
                    obtain observations and opinions on how USDA can better facilitate the
                    export of GE agricultural commodities;

                    reviewed FAS‟ realignment of assigned responsibilities for international
                    trade resulting from the agency‟s reorganization; and

                    reviewed applicable legislative history, laws, regulations, GAO and CRS
                    reports, prior OIG reports, and agencies‟ internal reviews, including Federal
                    Managers‟ Financial Integrity Act reports.

                 We conducted this performance audit in accordance with generally accepted
                 Government auditing standards. Those standards require that we plan and
                 perform the audit to obtain sufficient, appropriate evidence to provide a
                 reasonable basis for our findings and conclusions based on our audit objective.
                 We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on audit objective.

USDA/OIG-A/50601-14-Te                                                                   Page 33
Exhibit A – World Agricultural Biotechnology Regulations
                                                                                        Exhibit A – Page 1 of 4




                                           Thresholds for Traces   Mandatory Labeling       Traceability
        Country      Biotech Legislation
                                              of GE Material             Laws              Requirements



Total                 58                     54                     50                   31
                      Yes           No       Yes          No        Yes          No      Yes         No
Albania                                                    1                      1                   1
Algeria                              1                     1                      1                   1
Argentina                            1        1                                   1                   1
Armenia                              1                     1                      1                   1
Australia              1                      1                      1                                1
Austria                1                      1                      1                    1
Azerbaijan                           1                     1                      1                   1
Bahamas                              1                     1                      1                   1
Bahrain                              1                     1                      1                   1
Bangladesh                           1                     1                      1                   1
Barbados                             1                     1                      1                   1
Belgium                1                      1                      1                    1
Belize                               1                     1                      1                   1
Benin                                1        1                                   1                   1
Bermuda                              1                     1                      1                   1
Bolivia                              1                     1                      1                   1
Bosnia/Herzegovina                   1                     1                      1                   1
Botswana                             1                     1                      1                   1
Brazil                 1                                             1                                1
Bulgaria               1                                   1         1                    1
Burkina Faso                         1        1                                   1                   1
Burma                                1                     1                      1                   1
Cameroon               1                      1                      1
Canada                 1                                   1         1                                1
Chad                                 1                     1                      1                   1
Chile                                         1                                   1       1
China                  1                                   1         1                                1
Colombia               1                      1                                   1                   1
Costa Rica             1                      1                      1
Ivory coast                          1                     1                      1
Croatia                1                      1                      1                    1
Cyprus                 1                      1                      1                    1
Czech Republic         1                      1                      1                    1


USDA/OIG-A/50601-14-Te                                                                               Page 34
                                           Thresholds for Traces   Mandatory Labeling     Traceability
       Country       Biotech Legislation
                                              of GE Material             Laws            Requirements



                      Yes           No       Yes          No        Yes          No     Yes        No
Denmark                1                      1                      1                  1
Djibouti                             1                     1                      1                 1
Dominica                             1                     1                      1                 1
Dominican Republic                   1                     1                      1                 1
Ecuador                                                    1         1                              1
Egypt                                1                     1                      1                 1
El Salvador                                   1                                   1                 1
Eritrea                              1                     1                      1                 1
Estonia                1                      1                      1                  1
Ethiopia                             1                     1                      1                 1
Finland                1                      1                      1                  1
France                 1                      1                      1                  1
Gabon                                1                     1                      1                 1
Gambia                               1                     1                      1                 1
Germany                1                      1                      1                  1
Ghana                                                                             1                 1
Greece                 1                      1                      1                  1
Grenada                              1                     1                      1                 1
Guatemala                                                  1         1                              1
Guinea                               1                     1                      1                 1
Honduras               1                                   1                      1
Hong Kong                                                  1                                        1
Hungary                1                      1                      1                  1
Iceland                1                                   1
India                  1                      1                                                     1
Indonesia              1                                   1         1                              1
Ireland                1                      1                      1                  1
Israel                                                     1                      1                 1
Italy                  1                      1                      1                  1
Jamaica                                                    1                      1                 1
Japan                  1                      1                      1                  1
Jordan                               1                     1                      1                 1
Kazakhstan                           1                     1                      1                 1
Kenya                                         1                                   1                 1
Korea                  1                                   1         1                              1
Kuwait                               1                     1                      1                 1
Latvia                 1                      1                      1                  1
Lebanon                              1                     1                      1                 1
Lesotho                              1                     1                      1                 1

USDA/OIG-A/50601-14-Te                                                                             Page 35
                                         Thresholds for Traces   Mandatory Labeling     Traceability
      Country      Biotech Legislation
                                            of GE Material             Laws            Requirements



                    Yes           No       Yes          No        Yes          No     Yes        No
Lithuania            1                      1                      1                  1
Luxembourg           1                      1                      1                  1
Macedonia                          1                     1                      1                 1
Madagascar                         1                     1                      1                 1
Malawi                             1                     1                      1                 1
Malaysia                                                 1                                        1
Mali                               1                     1                      1                 1
Malta                1                      1                      1                  1
Mauritania                         1                     1                      1                 1
Mauritius                                                1                      1                 1
Mexico               1                      1                      1                              1
Micronesia                         1                     1                      1                 1
Moldova              1                                   1         1                              1
Mongolia                           1                     1                      1                 1
Morocco                                                  1                      1                 1
Namibia                                                  1                      1                 1
Nepal                              1                     1                      1                 1
Netherlands          1                      1                      1                  1
New Zealand          1                      1                      1                  1
Nicaragua            1                      1                                   1                 1
Niger                              1                     1                      1                 1
Nigeria                                                  1                                        1
Norway               1                      1                      1                  1
Oman                               1                     1                      1                 1
Pakistan                                                 1                      1                 1
Palau                              1                     1                      1                 1
Panama               1                                   1                      1                 1
Paraguay                                    1                                   1                 1
Peru                 1                                   1                      1                 1
Philippines          1                      1                                                     1
Poland               1                      1                      1                  1
Portugal             1                      1                      1                  1
Qatar                              1                     1                      1                 1
Romania              1                      1                      1                  1
Russia               1                      1                      1                              1
Rwanda                             1                     1                      1                 1
St. Kitts                          1                     1                      1                 1
St. Lucia                          1                     1                      1                 1
St. Vincent                        1                     1                      1                 1

USDA/OIG-A/50601-14-Te                                                                           Page 36
                                                     Thresholds for Traces   Mandatory Labeling     Traceability
         Country              Biotech Legislation
                                                        of GE Material             Laws            Requirements



                                Yes             No     Yes          No        Yes          No     Yes        No
Saudi Arabia                     1                      1                      1                              1
Senegal                                         1                    1         1                              1
Serbia/Montenegro                1                      1
Singapore                        1                                   1                      1                 1
Slovakia                         1                      1                      1                              1
Slovenia                         1                      1                      1                  1
South Africa                     1                      1                                   1                 1
Spain                            1                      1                      1                  1
Sri Lanka                                       1                    1                                        1
Sudan
Suriname                                        1                    1                      1                 1
Sweden                           1                      1                      1                  1
Switzerland                      1                      1                      1                              1
Syria                                           1                    1                      1                 1
Taiwan                                                                         1                              1
Tanzania                                        1                    1                      1                 1
Thailand                                                1                      1                              1
Timor                                           1                    1                      1                 1
Togo                                            1                    1                      1                 1
Trinidad/Tobago                                 1                    1                      1                 1
Tunisia                                                 1                                   1                 1
Turkey                                                               1                      1                 1
Uganda                                                               1                      1                 1
Ukraine                                                              1                      1                 1
United Arab Emirates                            1                    1                      1                 1
United Kingdom                   1                      1                      1                  1
Uruguay                          1                                   1                      1                 1
Uzbekistan                                                           1                      1                 1
Venezuela                        1                      1                                   1                 1
Vietnam                          1                                   1         1                              1
Yemen                                                   1
Zambia                                                               1                      1                 1
Total                           58              58     54           85         50          83     31         104

Source: FAS Biotech Group (data through 2004)




USDA/OIG-A/50601-14-Te                                                                                       Page 37
 Exhibit B – USDA Offices, Groups, and Positions Involved with Biotechnology
                                                                                    Exhibit B – Page 1 of 1

Special Assistant to the Secretary for Biotechnology (SASB)—Acting with the Secretary‟s authority,
the SASB provides leadership and direction on biotechnology-related activities throughout the
Department.

Advisory Committee on Biotechnology and 21st Century Agriculture (AC21)—AC21 is a diverse group
of experts in the field of biotechnology that serves as a think-tank providing information and advice to
the Secretary of USDA.

Biotechnology Policy Group (BPG)—BPG is a meeting of senior-level departmental officials
convened when there is a significant update involving a new technology, a regulatory development, or
a policy decision to be made.

Biotechnology Coordinating Group (BCG)—BCG is a meeting of agency representatives to share
information about departmental efforts involving biotechnology, to make decisions about technical
issues, and to help frame or identify issues for AC21‟s or the BPG‟s consideration.

Foreign Agricultural Service (FAS)—FAS is the lead USDA agency charged with facilitating
international trade. Within FAS, the Biotechnology Working Group served as a quick response team
for troubleshooting international trade issues.

CODEX Alimentarius—The Codex Alimentarius Commission, or Codex, was created in 1962 by two
U.N. organizations, the Food and Agriculture Organization and the World Health Organization, as an
international mechanism for promoting the health and economic interests of consumers while
encouraging fair international trade in food. CODEX standards are recognized in dispute settlement
proceedings of the WTO.

Animal and Plant Health Inspection Service (APHIS)—APHIS is responsible for regulating new
varieties of GE plants as they are developed, and deregulating those that are proved to be safe.

Grain Inspection, Packers and Stockyards Administration (GIPSA)—GIPSA certifies the accuracy of
tests developed by commercial laboratories. These tests are used to detect the presence of varieties of
GE material.

Agricultural Research Service (ARS) and Cooperative State Research, Education, and Extension
Service (CSREES)—ARS and CSREES support research into biotechnology-related projects, some of
which may affect U.S. trade, including risk assessment research and projects related to public
education.




USDA/OIG-A/50601-14-Te                                                                           Page 38
Exhibit C – Secretary of Agriculture Response
                                                Exhibit C – Page 1 of 1




USDA/OIG-A/50601-14-Te                                       Page 39
Exhibit D – Agency Response
                              Exhibit C – Page 1 of 10




USDA/OIG-A/50601-14-Te                      Page 40
USDA/OIG-A/50601-14-Te   Page 41
USDA/OIG-A/50601-14-Te   Page 42
USDA/OIG-A/50601-14-Te   Page 43
USDA/OIG-A/50601-14-Te   Page 44
USDA/OIG-A/50601-14-Te   Page 45
USDA/OIG-A/50601-14-Te   Page 46
USDA/OIG-A/50601-14-Te   Page 47
USDA/OIG-A/50601-14-Te   Page 48
USDA/OIG-A/50601-14-Te   Page 49
